HHS/OIG-Audit--"Review of Improper Payments Made to Hospitals and Skilled Nursing Facilities for Beneficiaries Electing Hospice Benefits, (A-02-93-01029)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Improper Payments Made to Hospitals and Skilled Nursing Facilities for Beneficiaries Electing Hospice
Benefits," (A-02-93-01029)
June 7, 1995
Complete
Text of Report is available in PDF format (1.41 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that for the 5-year period ending December 31, 1992, hospitals and skilled nursing
facilities (SNFs) were improperly paid an estimated $21.6 million for services provided to Medicare beneficiaries receiving
hospice care. Once a beneficiary elects hospice care, no Medicare payments are allowed to hospitals or SNFs for services
related to the beneficiary's terminal illness. In such situations, the hospitals or SNFs should be reimbursed by the hospice
facility in which the beneficiary is enrolled. The claims were improperly paid because of claims processing weaknesses
in the Health Care Financing Administration's (HCFA) Common Working File system. We will be recommending improvements to
this system in a separate report. In this report, we are recommending that HCFA instruct the fiscal intermediaries (FI)
to review the related medical records of Medicare beneficiaries in hospices and, where improper payments were made, the
FIs should seek refunds of incorrect payments and make appropriate adjustments to hospital cost reports. The HCFA concurred
with our findings and recommendations.